APPENDIX

1a
APPENDIX A
_________
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_________
No. 19-40741
Consolidated with 19-40755
_________
In re: JULIUS JEROME MURPHY,
Movant
_________
On Motion for Authorization to File Successive
Petition for Writ of Habeas Corpus in the
United States District Court for the
Eastern District of Texas
USDC No. 5:19-CV-112
_________
Before HO, DUNCAN, and ENGELHARDT, Circuit
Judges.
PER CURIAM:*
Julius Jerome Murphy was convicted of capital
murder and sentenced to death in August 1998. He
now seeks authorization to file a successive petition
for a writ of habeas corpus pursuant to 28 U.S.C.
§ 2244(b)(2)(B). For the reasons explained below,
Murphy’s motion for authorization is DENIED.
On September 18, 1997, Julius Murphy, Chris
Solomon, Javarrow Young, Christina Davis, Marie
Woods, Elena DeRosia, and Philip Schute gathered
at Murphy’s house where they drank alcohol and

2a
smoked marijuana.1 Thereafter, the group, heading
to Texarkana, split up in two separate cars –
Murphy, Solomon, Davis, and Woods were in one car,
while Young, DeRosia, and Schute were in the other.
The two cars pulled over at a gas station, and
Solomon, who had a gun in the glove compartment of
his car, said that he saw a man who was having car
trouble and suggested going over to “jack him.”
Young, whose child was in his car at the time, did
not want to be involved, so he drove to a Waffle
House across the Interstate. Solomon drove his car
back to where the stranded man – Jason Erie – was
and helped Erie jump his car. Solomon then got back
into his own car, and Erie came over and gave him
five dollars for his help. After Erie returned to his
car, Woods took Solomon’s gun from the glove
compartment and handed it to Murphy. Murphy and
Solomon exited the vehicle and gunshots followed.
Erie had been robbed and shot in the head and later
died from that gunshot wound. Murphy, Solomon,
and Woods were apprehended by police, and Murphy
and Solomon were charged with capital murder. The
State’s only two fact witnesses who testified against
Murphy at his original trial were Javarrow Young
and Christina Davis.
After Murphy was convicted by a jury of capital
murder and was sentenced to death, he challenged
*Pursuant to 5TH CIR R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR R. 47.5.4.
1

In his petition, Murphy alleges the blunt he smoked was
“wet,” meaning it had been dipped in embalming fluid, which
often contains PCP, causing hallucinations, delusions,
disorientation, and loss of consciousness.

3a
his conviction and sentence in state and federal
court.
In the instant motion, Murphy seeks
authorization to file a successive petition in the
district court alleging the district attorney’s office
failed to disclose threats of prosecution and promises
of leniency to its two key witnesses, in violation of
Brady v. Maryland, 373 U.S. 83 (1963) and Giglio v.
United States, 405 U.S. 150 (1972). Specifically, he
alleges the State threatened to charge Young and
Davis with murder and conspiracy to commit murder
if they did not testify against Murphy; and, Murphy
obtained affidavits from Young and Davis to that
effect. Prior to filing this motion in our court,
Murphy brought his Brady and Giglio claims to
Texas state court.
After the TCCA granted
permission for Murphy to file a successive state
habeas petition, the trial court held an evidentiary
hearing on the Brady and Giglio claims and found
the State’s evidence to be more credible than
Murphy’s.2 Accordingly, the TCCA denied Murphy’s
successive state habeas petition.
For our court to grant Murphy permission to file a
successive habeas petition, he must make a prima
facie showing that:
(i) the factual predicate for the claim could not
have been discovered previously through the
exercise of due diligence; and (ii) the facts
underlying the claim, if proven and viewed in
light of the evidence as a whole, would be
2

Neither Young nor Davis were present at the evidentiary
hearing, despite Murphy’s attempts to subpoena them. The
trial court relied solely upon their affidavits in determining the
witnesses’ credibility. Conversely, the State’s witnesses were
present and available for cross examination.

4a
sufficient to establish by clear and convincing
evidence that, but for constitutional error, no
reasonable factfinder would have found the
applicant guilty of the underlying offense.
§ 2244(b)(2)(B). A prima facie showing requires “a
sufficient showing of possible merit to warrant a
fuller exploration by the district court . . . [and if it]
appears reasonably likely that the application
satisfies the stringent requirements for the filing of a
second successive petition” then the petition should
be granted. Reyes-Requena v. United States, 243
F.3d 893, 899 (5th Cir. 2001). As this court in ReyesRequena noted, the requirements for filing a
successive petition are stringent. Id.
Simply put, the record in the instant case does not
reflect that Murphy exercised due diligence in
investigating the truthfulness of Davis’ and Young’s
testimonies to support his Brady and Giglio claims,
nor that this newly discovered information proves, by
clear and convincing evidence, that but for the
prosecution’s misconduct, no reasonable factfinder
would have found Murphy guilty.
As for due
diligence, Murphy’s trial concluded in 1998 and the
Davis and Young affidavits came to light in 2015.
Murphy offers no evidence why the “factual
predicate” for their claims of witness intimidation
could not have been discovered through due diligence
during that seventeen-year interval. Indeed, the
record reflects that Murphy long ago had every
reason to explore such claims—for example, Young
testified at trial that the police threatened him
before he gave his initial statement. See Johnson v.
Dretke, 442 F.3d 901, 911 (5th Cir. 2006) (explaining
that a petitioner cannot show due diligence if he had

5a
notice “of the existence of the factual predicate and of
the factual predicate’s ultimate potential exculpatory
relevance”).
Moreover, even with the recanting
testimonies of Davis and Young, Murphy can not
demonstrate facts indicative of his innocence. See In
re Davila, 888 F.3d 179, 186 (5th Cir. 2018); see also
Summers v. Dretke, 431 F.3d 861, 872 (5th Cir. 2005)
(noting this circuit views recanting affidavits with
“extreme suspicion”). 3 Additionally, Murphy offers
no case law supporting the proposition that the
alleged prosecutorial misconduct would lead any
reasonable factfinder to discredit his own oral and
written confessions in which he admitted to
murdering Erie. Specifically, Murphy “confessed to
the crime in a written statement. Afterwards, when
being booked into jail, [Murphy] stated, ‘I bet y’all
never had anybody stand up and say straight out
that he killed’ someone.” Ex parte Murphy, 560
S.W.3d 252, 253 (Tex. Crim. App. 2018) (Alcala, J.,
dissenting), cert. denied sub nom. Murphy v. Texas,
139 S. Ct. 2638 (2019). Because Murphy has not
satisfied the stringent requirements under 28 U.S.C.
§ 2244(b)(2), his motion for authorization to file a
successive petition for a writ of habeas corpus is
DENIED.
Filed: October 22, 2019

3

Notably, neither Young nor Davis were eye witnesses to the
shooting, and their 2015 affidavits do not provide direct
evidence or support for their recanting statements which would
require a reasonable factfinder to conclude that Murphy was
not the shooter.

6a
APPENDIX B
_________
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
_________
No. WR-38,198-04
_________
EX PARTE JULIUS JEROME MURPHY
_________
ON APPLICATION FOR WRIT OF
HABEAS CORPUS
IN CAUSE NO. 97-F-462-102 IN THE
102ND JUDICIAL DISTRICT COURT
BOWIE COUNTY
_________
Per curiam. ALCALA, J., filed a dissenting
opinion in which WALKER, J., joins.
_________
ORDER
This is a subsequent application for a writ of
habeas corpus filed pursuant to the provisions of
Texas Code of Criminal Procedure Article 11.071
§ 5.1
In August 1998, a jury found applicant guilty of the
offense of capital murder. The jury answered the
special issues submitted pursuant to Article 37.071,

1

Unless otherwise indicated, all references to Articles refer to
the Code of Criminal Procedure.

7a
and the trial court, accordingly, set applicant’s
punishment at death.
This Court affirmed applicant’s conviction and
sentence on direct appeal.
Murphy v. State,
No. AP-73,194 (Tex. Crim. App. May 24, 2000)(not
designated for publication). This Court denied relief
on applicant’s initial post-conviction application for a
writ of habeas corpus.
Ex parte Murphy,
No. WR-38,198-02 (Tex. Crim. App. Apr. 10, 2002)
(not designated for publication).2
On January 17, 2006, applicant filed in the trial
court a subsequent application for a writ of habeas
corpus. In the subsequent application, applicant
asserted that he was intellectually disabled and,
therefore, exempt from execution. We remanded the
issue to the trial court, and that court determined
that applicant should be denied relief. We agreed.
Ex parte Murphy, No. WR-38,198-03 (Tex. Crim.
App. Nov. 19, 2014)(not designated for publication).
On September 24, 2015, applicant filed a second
subsequent application in the trial court. In this
application, applicant asserted that (1) the district
attorney’s office failed to disclose threats of
prosecution and promises of leniency to the State’s
two main witnesses as required by Brady v.
Maryland, 373 U.S. 83 (1963), and Giglio v. United
States, 405 U.S. 150 (1972); (2) the State
unknowingly presented false testimony through one
2

On July 15, 1998, applicant filed with this Court an
application for a writ of prohibition requesting this Court to
prohibit the trial court from ordering him to submit to a
psychiatric exam. The Court denied him leave to file that
application on July 16, 1998.
See Ex parte Murphy,
No. WR-38,198-01 (no written order issued).

8a
of these witnesses in violation of Ex parte Chabot,
300 S.W.3d 768 (Tex. Crim. App. 2009); and
(3) evolving standards of decency dictate that the
death penalty is no longer constitutional.
In October 2015, this Court stayed applicant’s
execution. Ex parte Murphy, No. WR-38,198-04 (Tex.
Crim. App. Oct. 12, 2015)(not designated for
publication).
And in June 2016, we held that
applicant’s first and second claims satisfied the
requirements of Article 11.071 § 5, and remanded
them to the trial court for resolution. Ex parte
Murphy, No. WR-38,198-04 (Tex. Crim. App.
June 15, 2016)(not designated for publication). We
did not dispose of the third allegation at that time in
order to address all allegations together in a concise
fashion.
After holding a live hearing, and considering the
arguments by applicant and the State, the trial court
entered findings of fact and conclusions of law
recommending that applicant’s first and second
claims be denied.
We have reviewed the record and the trial court’s
findings of fact and conclusions of law. Based upon
our own review, we deny relief on applicant’s first
two claims regarding Brady violations and alleged
false testimony.
Applicant’s third allegation regarding the
constitutionality of the death penalty is dismissed.
IT IS SO ORDERED THIS THE 7th DAY OF
NOVEMBER, 2018.
Do Not Publish

9a
APPENDIX C
_________
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
_________
No. WR-38,198-04
_________
EX PARTE JULIUS JEROME MURPHY,
Applicant
_________
ON APPLICATION FOR POST-CONVICTION
WRIT OF HABEAS CORPUS
CAUSE NO. 97-F-462-102
IN THE 102ND JUDICIAL DISTRICT COURT
BOWIE COUNTY
_________
ALCALA, J., filed a dissenting opinion
in which WALKER, J., joined.
DISSENTING OPINION
In this application for post-conviction habeas relief
filed by Julius Jerome Murphy, applicant, the habeas
court never heard any live testimony from the two
witnesses who are pertinent for the resolution of
applicant’s false-evidence claim. I, therefore, would
remand this case to the habeas court for it to
properly analyze applicant’s claim based on a
complete review of all the pertinent evidence, rather
than, as this Court’s majority does, deny applicant’s
claim based on the existing record that includes only
written
affidavits
from
those
witnesses.
Furthermore, because the parties and trial court had

10a
agreed that applicant’s death sentence for capital
murder should be reformed to a life sentence for
murder and applicant had been relocated from death
row into the general prison population, I conclude
that this Court should address the merits of
applicant’s “Motion to Remand” this case, in which
he challenges this Court’s decision to disallow that
reformation. Specifically, applicant alleges that it
would violate the Eighth Amendment to re-impose
his death sentence after the district attorney and the
trial judge agreed to reform his sentence to life
imprisonment. Because I conclude that applicant
has presented a colorable argument that it would
violate his constitutional rights to carry out his
death sentence under these circumstances in which
the State formerly agreed to reform his sentence to
life imprisonment, I would consider that issue on its
merits. I, therefore, respectfully dissent from this
Court’s denial of relief as to applicant’s falseevidence claim and its denial of his motion to
remand.
I. Background
In 1998, applicant was convicted of capital murder
and sentenced to death for the 1997 shooting of
Jason Erie. The shooting took place during a robbery
of the victim in a parking lot. Prior to the shooting,
applicant had spent the evening drinking and
partying with a group of friends.
The friends
eventually decided to go out to eat at a restaurant
and left in two cars. At one point, the two cars
pulled over at a gas station, and the driver of one of
the cars, Chris Solomon, told the group he had
noticed a man who was having car trouble and that
he wanted to go “jack him.” The driver of the other

11a
car, Javarrow Young, told Solomon that he was not
interested because he had his child in his car. The
group then split up. Young and several passengers
drove to the restaurant. Applicant, along with his
girlfriend Christina Davis and a woman named
Maria Woods, rode in Solomon’s car to the parking
lot where the victim was working on his car. The
group assisted the victim with jump starting his car.
According to the trial testimony, Woods then took a
gun out of the car’s glove box and handed it to
applicant. Applicant got out of the car, went to the
passenger side of the victim’s car, and told the victim
to give him all his money. When the victim refused
and got out of his car and came towards applicant,
applicant shot him one time in the head. Applicant
took the victim’s wallet and the group left the scene.
After waiting at the restaurant for 15 to 30
minutes, Young and his companions left to look for
Solomon’s car, returning to the parking lot where the
robbery had occurred, at which point they saw the
victim lying on the ground. When police arrived
around that time, Young gave them a false name,
denying that he knew anything about the shooting.
But a few days later, Young spoke to the police again
and told them that his friends had committed the
robbery.
At trial, Young testified that police
threatened to take his baby away from him and the
baby’s mother if he did not cooperate with the police.
Davis was eventually interviewed by police, and
she later testified at trial. Initially, Davis told
officers that Solomon shot the victim. Davis later
gave a second statement in which she indicated that
it was applicant who had shot the victim.

12a
Applicant confessed to the crime in a written
statement. Afterwards, when being booked into jail,
applicant stated, “I bet y’all never had anybody stand
up and say straight out that he killed” someone.
At trial, no physical evidence was presented linking
applicant to this offense. The primary evidence
against applicant was testimony from Davis and
Young, along with his own written confession.
Following his trial, this Court affirmed applicant’s
conviction and sentence on direct appeal. Murphy v.
State, No. AP-73,194 (May 24, 2000) (not designated
for publication). In 2002, this Court denied relief on
the initial post-conviction habeas application. See
WR-38,198-02. And in 2014, this Court denied relief
on the first subsequent application.
See
WR-38,198-03. This is applicant’s second subsequent
habeas application.
In his instant pleadings that were filed in 2015,
applicant raised three grounds:
(1) the district
attorney’s office failed to disclose threats of
prosecution and promises of leniency to the State’s
two main witnesses, Davis and Young, as required by
Brady v. Maryland, 373 U.S. 83 (1963); (2) the State
unknowingly presented false testimony through the
testimony of Davis and Young in violation of Ex parte
Chabot, 300 S.W.3d 768 (Tex. Crim. App. 2009); and
(3) evolving standards of decency dictate that the
death penalty is no longer constitutional. With
respect to his first two claims, applicant relied on
new affidavits from Davis and Young.
Both
witnesses’ affidavits appear to indicate that, contrary
to their testimony at trial, applicant was not the
shooter but that Solomon had in fact shot the victim.
Both witnesses indicated in their affidavits that they

13a
gave false testimony as a result of threats of
prosecution by the State.
This Court determined that the first and second
claims met the requirements for consideration in a
subsequent writ application, and in 2016, we
remanded those issues to the trial court for
resolution on their merits.
Ex parte Murphy,
No. WR-38,198-04 (Tex. Crim. App. June 15, 2016).
Approximately one year later, in June 2017, this
Court received a supplemental record from the trial
court.
The supplemental record contained
documents indicating that, in May 2017, during the
course of the litigation on remand, the parties had
sought to enter into an agreement to reform
applicant’s conviction for capital murder to regular
first-degree murder, and to reform his sentence from
death to life imprisonment.
After the parties
reached this agreement, the State filed a “Motion to
Dismiss the Indictment,” in which the State asked
the judge to dismiss the capital murder charge with
prejudice, purportedly relying on the terms in Code
of Criminal Procedure Article 32.02.1 The trial court
granted the State’s motion and issued an order
accepting the parties’ agreement. The trial court
also recommended dismissing the instant writ
application as moot in light of the parties’
agreement. In response to this development, this
1

See TEX. CODE CRIM. PROC. art. 32.02 (“The attorney
representing the State may, by permission of the court,
dismiss a criminal action at any time upon filing a written
statement with the papers in the case setting out his reasons
for such dismissal, which shall be incorporated in the
judgment of dismissal. No case shall be dismissed without
the consent of the presiding judge.”).

14a
Court issued an order rejecting the parties’
agreement and the trial court’s dismissal of the
indictment on the basis that, because only this Court
has the ultimate power to determine whether habeas
relief may be granted in this context, the trial court
lacked jurisdiction to reform the death sentence until
this Court had ruled on the merits of the habeas
application and determined that a new trial was
warranted.
In accordance with this Court’s instructions to
resolve the merits of applicant’s habeas claims, the
trial court subsequently held a hearing. At the
hearing, neither Young nor Davis appeared, despite
having been summoned to testify. According to the
record, at the time of the hearing, Young was
incarcerated in Huntsville on a felony assault
charge. Applicant asserts that, based on instructions
received from the clerk and constable, a subpoena for
Young’s appearance was served on TDCJ. However,
because no bench warrant was issued for Young to
appear, TDCJ did not transport him to the hearing.
Davis did not appear because attempts to serve her
in multiple locations failed.
Several witnesses, including applicant’s trial
counsel and the prosecutors, did testify. Applicant’s
trial counsel testified that the State did not inform
him that Davis may face charges. Counsel said he
met with Davis prior to trial and she did not mention
any threats of prosecution or deals with the
prosecution in exchange for her testimony. Counsel
also testified that he was unaware of any deals with
Young. The defense team was aware that Young had
been threatened with having his child taken away
and focused on that fact during cross-examination at

15a
trial. Two prosecutors who had worked on the case
also testified and indicated that the State did not
disclose any threats or promises of leniency for Davis
or Young because no such threats or promises were
made.
Based on the evidence that had been introduced,
the habeas court made findings of fact and
conclusions of law recommending that all relief be
denied. With respect to applicant’s Brady claim, the
habeas court found credible the prosecutors’
testimony indicating that no threats of prosecution
or deals were made for Davis and Young. With
respect to applicant’s false-evidence claim, the
habeas court determined that the affidavits from
Davis and Young were not credible, and, in any
event, their new assertions were not material to a
finding of guilt in light of applicant’s confession to
this offense.
In his current pleadings before this Court styled as
a “Motion to Remand,” applicant challenges the
habeas court’s refusal to require live testimony from
the recanting witnesses to ascertain their credibility.
The relevant witnesses, Davis and Young, did not
appear to give testimony despite applicant’s efforts to
secure their testimony at the habeas hearing.
Applicant complains that the trial court did not
permit live testimony by Young, who did not appear
because he was incarcerated in Walker County at the
time of the hearing. Young was not transported to
the hearing in Bowie County, nor was his live
testimony permitted through live electronic
communication. Davis could not be located and
failed to appear for the hearing. Applicant has
requested further opportunity to obtain their

16a
presence for live testimony at a habeas hearing
before the habeas court.
II. This Case Should Be Remanded For a New
Hearing with Testimony from Absent Witnesses
I would not adopt the habeas court’s findings of fact
and conclusions of law rejecting applicant’s falseevidence claim at this juncture because the two most
pertinent witnesses on that matter have yet to
provide live testimony subject to cross-examination
and full consideration by the habeas court.
I
conclude that a live hearing is needed to fully
evaluate the credibility of Davis’s and Young’s
assertions that applicant was not the shooter and,
therefore, I would remand this case to the habeas
court for live testimony.
Although applicant’s
confession was admitted at his trial, the strength of
that evidence must be weighed against the recanted
testimony by Davis and Young to determine whether
it would still support a finding of guilt and
imposition of the death penalty under the
reevaluated circumstances.
The importance of live testimony from these
recanting witnesses in this case is a consequence of
the evidence adduced at applicant’s trial. At trial,
the State’s case primarily consisted of applicant’s
confession and these witnesses’ testimony.
As
applicant contended at trial and reemphasizes in his
instant application, no physical evidence shows that
applicant shot the victim. Perhaps it could be
argued, as the habeas court suggested, that
applicant’s false-evidence claim necessarily should
fail in light of his written confession which renders
these witnesses’ recantations immaterial. However,
I reject the notion that applicant’s confession makes

17a
the instant litigation meaningless.
Although
applicant confessed to shooting the victim,
applicant’s habeas counsel points out that applicant’s
statement should be viewed with significant
skepticism. As applicant’s trial counsel noted, “For
many reasons, especially not very thoughtful ones
and very well thought-out reasons, people are willing
to take the blame for something they didn’t do.” The
Supreme Court has recognized that the possibility of
a false confession increases with intellectual
disability, taking note of this fact as a rationale for
exempting the intellectually disabled from capital
punishment. See Atkins v. Virginia, 536 U.S. 304,
320 (2002). Given his prior habeas claims suggesting
that he is intellectually disabled and that, at a
minimum, he has below average intelligence and was
intoxicated by alcohol and marijuana at the time of
the offense, applicant’s confession could potentially
be an instance of falsely taking responsibility for
another’s actions. Thus, the importance of live
testimony from the now-recanting witnesses who
previously buttressed that confession cannot be
overstated. Considering the lack of physical evidence
and plausible reasons to possibly doubt the veracity
of applicant’s confession, due process and the right to
a fair trial necessitate an opportunity to personally
evaluate the recantations of these witnesses the
State relied upon to support the veracity of
applicant’s confession. Moreover, while recognizing
that applicant could possibly have been convicted of
capital murder under a party-liability theory even if
he was not the actual gunman, a jury might have
reasonably concluded that someone who was not the
actual gunman poses a lesser danger to society and
would have concluded that a death sentence was

18a
inappropriate. Accordingly, I would remand this
application to the habeas court for it to receive live
testimony from Davis and Young.
III. Court Should Consider Constitutional
Implications of Permitting Applicant’s
Execution Following Agreed Reduction of
Sentence
In his motion to remand, applicant asserts that the
reinstatement of his death sentence months after
that sentence was lifted pursuant to the trial court’s
order accepting the parties’ agreement to reduce his
sentence to life imprisonment violates the Eighth
Amendment. Applicant asserts that, at the time the
agreement was entered into, both parties “believed in
good faith that this plea agreement was valid.”
Applicant continues, “The victim’s family agreed to
this plea deal, the trial court accepted Murphy’s plea,
and dismissed the original indictment in June 2017.
For months, Murphy’s death sentence was lifted and
he believed in good faith that he would not be
executed . . . . To re-impose Murphy’s death sentence
now would subject Murphy to extreme psychological
harm in violation of” the Eighth Amendment.
Applicant contends that the Eighth Amendment may
be violated by a punishment that imposes extreme
psychological suffering. See Beal v. Foster, 803 F.3d
356, 357-58 (7th Cir. 2015) (the “alleged pain
sufficient to constitute cruel punishment may be
physical or psychological”). He asserts that forcing
him to suffer the psychological trauma of having his
death sentence imposed again, following the parties’
collective good-faith belief that the State had the
ability to dismiss and re-plead him to life
imprisonment under these circumstances, is

19a
precisely the sort of “unnecessary and wanton
infliction of pain” that the Eighth Amendment
proscribes. See Gregg v. Georgia, 428 U.S. 153, 173
(1976). He further contends that re-imposing a
death sentence following an agreed reduction of his
sentence to life imprisonment renders his
punishment arbitrary and capricious. See id. at 188.
He asserts that the Eighth and Fourteenth
Amendments prohibit a state from inflicting “a
sentence of death under legal systems that permit
this unique penalty to be so wantonly and so
freakishly imposed.” Id.
At the outset, I continue to believe that, because
only this Court may grant habeas relief, the trial
court did not have the jurisdiction or authority to
alone set aside applicant’s death sentence and to
permit applicant to be re-sentenced to life in prison
for murder. But that does not resolve the instant
pleadings that now contend that, having been resentenced to life in prison via an agreement with the
State that that was the appropriate punishment for
this offense, applicant’s death sentence must not be
re-imposed because doing so would violate his rights
under the federal Constitution. That is a difficult
and complicated question that is one of first
impression in this Court. I would file and set that
issue for further evaluation of whether the
imposition of applicant’s death sentence under these
circumstances would constitute a cruel and arbitrary
punishment in violation of the Eighth Amendment.
IV. Legislation May Be Appropriate to
Address this Type of Inequity
This case is not unique in the sense that years after
the sentence was imposed, it is recognized that the

20a
death sentence was inappropriate for the case. This
Court has seen multiple instances in which, in the
past, a person was sentenced to death but, due to the
passage of time and changes in the law or
understanding of the facts, the present state
representatives believe the death sentence is unjust.
This problem sometimes can be remedied through
traditional habeas review when this Court
determines that there is a meritorious constitutional
claim that entitles the defendant to relief. But
sometimes, as here, given this Court’s majority order
denying relief, the habeas review process is
inadequate to reach a just result in the eyes of the
defense, the state prosecutors, and the victim’s
family. A rare grant of clemency by the Texas
Governor may attempt to correct the inadequacy of
the habeas review process. But I conclude that there
should be other avenues that would permit habeas
relief from a death or other type of unjust sentence
when the defense, prosecutors, and trial judge all
agree that relief is appropriate and in the interests of
justice.
Here, as evidenced by its agreement to permit a life
sentence for applicant, the State no longer believes
that the death penalty remains an appropriate
punishment for this offense. And yet, as this Court
has indicated, there currently exists no procedural
mechanism or statute that would allow the parties to
agree to reform a pending death sentence to any
other punishment. Believing his death sentence to
be finally invalidated through an agreement of the
parties, applicant was moved off death row into the
general prison population to serve a sentence of life
imprisonment. But now, as a result of an absence of

21a
any statutory mechanism that would permit that
agreement, applicant has been returned to death row
to again await imposition of his death sentence.
Given the rarity of grants of clemency, the current
situation presents the real possibility that applicant
would be executed even though the State no longer
wishes to pursue that punishment against him. 2
Aside from the potential constitutional concerns
noted above, this situation runs counter to the public
interest when, after a lengthy incarceration on death
row, the State and the victim’s family indicate that
they no longer wish to pursue the yet-to-be-carriedout execution of the defendant.
To remedy this situation, the Legislature could
consider enacting legislation that would permit a
defendant and the State, with the consent of the
victim’s family, to enter into an agreed reformation
of a capital murder judgment to reflect some
punishment less than death. As the Supreme Court
has stated, “the penalty of death is different in kind
from any other punishment imposed under our
2

With respect to executive clemency, I note here that
clemency has been granted in Texas only in the very rare case.
In August 2013, the Capital Punishment Assessment team
noted that, as of that time, Texas had executed 503 inmates in
the modern death penalty era and had commuted the sentences
for only two inmates facing imminent execution. See Capital
Punishment Assessment Highlights, Clemency, Chapter 9,
available
at
http://www.txcourts.gov/media/415483/ABATXCapitalPunishm
entAssessmentHighlights.pdf. In the period since that report
was issued, I am aware of only one additional inmate who has
been granted clemency. Given the rarity of grants of clemency,
the hypothetical availability of this remedy should not weigh
against the policy considerations that favor the enactment of
legislation in this area.

22a
system of criminal justice.” Gregg, 428 U.S. at 188.
It is “unique in its severity and irrevocability.” Id. at
187.
I conclude that, when there are serious
questions about the facts supporting a conviction for
capital murder or the appropriateness of a death
sentence, and when the State, the defense, and the
trial court agree that reformation of a death sentence
to a lesser sentence is the appropriate and just
resolution of the case, there should be a mechanism
under the law, aside from clemency, that permits
such a reformation.
V. Conclusion
I would remand applicant’s false-evidence claim for
a new hearing in the habeas court, and I would
consider the merits of the arguments presented in
his motion to remand asserting that executing him
under these particular circumstances would violate
the federal Constitution. I, therefore, respectfully
dissent.
Filed: November 7, 2018
Publish

23a
APPENDIX D
_________
Jill Harrington
District Clerk
Bowie County, Texas Teresa Tipps, Deputy
Cause No. 97F0462-102
Filed 03/08/2018
_________
Cause No. 97F0462-102
_________
Ex parte

* IN THE DISTRICT
COURT

JULIUS MURPHY,

* 102ND JUDICIAL
DISTRICT

Applicant

* BOWIE COUNTY, TEXAS
FINDINGS OF FACT AND
CONCLUSIONS OF LAW

The Court of Criminal Appeals’ Orders of June 15,
2016 and September 20, 2017 remanded the above
styled and numbered cause for findings of fact and
conclusions of law to this trial court. Pursuant to
those orders, the court is to make factual findings
regarding whether the district attorney’s office failed
to disclose threats of prosecution and promises of
leniency to the State’s two main witnesses as
required by Brady v. Maryland, 373 U.S. 83 (1963)
and Giglio v. United States, 405 U.S. 150 (1972) and
also whether the State unknowingly presented false
testimony through one of these witnesses in violation
of Ex parte Chabot, 300 S.W.3d 768 (Tex. Crim. App.

24a
2009).
Therefore, having considered Applicant
Julius Murphy’s Second Subsequent Application for
Post-Conviction Writ of Habeas Corpus, together
with attached exhibits; the State’s Original Answer
to Applicant’s Second Subsequent Application for
Writ of Habeas Corpus; the Affidavit of Craig Henry;
the testimony and evidence presented at the live
evidentiary hearing on this matter; and the official
court records for Applicant’s capital murder trial and
this post-conviction proceeding, the court makes the
following findings of fact and conclusions of law:
FINDINGS OF FACT
I. Procedural History
1. On September 20, 1997, Applicant, Julius
Murphy, was indicted by the grand jury for the
Capital Murder of Jason Erie. (C.R. Vol. 1, p. 2).
Applicant was represented at trial by counsel, Craig
Henry and Bill Schubert. Applicant was convicted in
cause number 97F0462-102 of Capital Murder in the
102nd Judicial District Court of Bowie County, Texas,
and the trial court assessed applicant’s punishment
at death by lethal injection pursuant to the jury’s
responses to the special issues on August 13, 1998.
State v. Murphy, Cause No. 97F0462-102.
2. On May 24, 2000, the Texas Court of Criminal
Appeals affirmed the Applicant’s conviction and
sentence. Murphy v. State, No. 73,194 (Tex. Crim.
App. May 24, 2000)(not designated for publication).
3. On April 10, 2002, the Texas Court of
Criminal Appeals denied applicant’s initial
application for writ of habeas corpus pursuant to
Article 11.071. Ex parte Murphy, No. WR-38,198-02

25a
(Tex. Crim. App. April 10, 2002)(not designated for
publication).
4. On February 7, 2003, Applicant filed a federal
petition for writ of habeas corpus in the United
States District Court for the Eastern District of
Texas. The federal district court denied Applicant
relief in 2004.
5. Applicant appealed to the United States Court
of Appeals for the Fifth Circuit. On July 11, 2005,
the Fifth Circuit affirmed the district court’s denial
of relief. Murphy v. Dretke, 416 F.3d 427 (5th Cir.
2005).
6. Applicant filed a petition for a writ of
certiorari in the United States Supreme Court, and it
was denied on January 9, 2006. Murphy v. Dretke,
No. 05-6940 (Jan. 9, 2006).
7. On January 17, 2006, applicant filed a
subsequent application for a writ of habeas corpus in
the trial court, based on the United States Supreme
Court’s holding in Atkins v. Virginia, 536 U.S 304,
307 (2006), arguing that he was mentally retarded
and, as such, cannot be executed. The Texas Court
of Criminal Appeals denied relief on November 19,
2014. Ex parte Murphy, No. WR-38,198-03 (Tex.
Crim. App. Nov. 19, 2014) (not designated for
publication).
8. On September 24, 2015, Applicant filed a
second subsequent application for writ of habeas
corpus in the trial court.
In this application,
applicant has asserted that (1) the district attorney's
office failed to disclose threats of prosecution and
promises of leniency to the State's two main
witnesses as required by Brady v. Maryland,

26a
373 U.S. 83 (1963), and Giglio v. United States,
405 U.S. 150 (1972); (2) the State unknowingly
presented false testimony through one of these
witnesses in violation of Ex parte Chabot, 300 S.W.3d
768 (Tex.Crim.App.2009); and (3) evolving standards
of decency dictate that the death penalty is no longer
constitutional.
In support of his Application,
Applicant submitted the sworn Affidavits of
Christina Davis and Javarrow Young, two of the
State’s lay witnesses at trial.
Applicant also
submitted the sworn Affidavits of Kimberly Huggins,
Elena Byrd and Jennifer Hopson Hancock, who were
not present at the scene of the murder and did not
testify at trial.
9. On October 12, 2015, the Court of Criminal
Appeals stayed Applicant's execution.
10. On June 15, 2016, the Court of Criminal
Appeals, after reviewing applicant's subsequent
application, determined that his first and second
claims satisfy the requirements of Article 11.071 § 5
and remanded those claims to the trial court for
resolution.
11. On October 20, 2017, the trial court held an
evidentiary hearing, at which time Applicant and the
State presented testimony concerning the issues.
Applicant was represented by Cate Stetson,
Desmond
Hogan,
Elizabeth
Lockwood,
and
Katherine Ali, and the State, as Respondent, was
represented by Jerry D. Rochelle and Lauren N.
Sutton Richards.
II. Testimony at Trial
12. On the afternoon of September 18, 1997,
Julius Murphy, Chris Soloman, Philip Schute,

27a
Javarrow Young, Elena DeRosia, Maria Woods,
Christina Davis and others gathered at Applicant’s
house to drink alcohol, smoke weed, and play
dominoes. (R.R. Vol. 18, p. 32-34). Applicant, Chris,
Phillip, and Javarrow were all drinking beer and
Chris, Applicant and Phillip were smoking
marijuana. (R.R. Vol. 18, p. 35). There was a .25
automatic pistol that was passed around between
Chris, Phillip, Applicant and Marie while they were
at Applicant’s house. (R.R. Vol. 18, p. 51-52).
13. The group eventually left Applicant’s house
and went to New Boston to another individual’s
house and drank more alcohol.
(R.R. Vol. 18,
p. 36-37). They stayed in New Boston for around
forty-five minutes (R.R. Vol. 18, p. 121). The group
then left New Boston and drove back to Texarkana.
(R.R. Vol. 18, p. 38). Around 11:00 or 12:00 p.m.,
they decided to go to Waffle House to eat, driving up
Summerhill Road. (R.R. Vol. 18, p. 40).
14. Javarrow Young, Elena DeRosia, Javarrow’s
child, and Phillip Schute were in one vehicle, and
Applicant, Chris Soloman, Maria Woods, and
Christina Davis were in another vehicle. (R.R. Vol.
18, p. 41-42, 44). The two cars pulled over at a gas
station, and Chris made statements he saw a man
who was having car trouble and that they were going
to go and “jack him” (R.R. Vol. 18, p. 42). Javarrow
told them to go ahead, that he was going about his
own business because he had his child in the car.
(R.R. Vol. 18, p. 44-45). At this point the two cars
split up, with Javarrow’s car going across the
Interstate because they did not want to be involved
(R.R. Vol. 18, p. 45). They drove off, and Javarrow
never saw anybody shoot anybody, never saw them

28a
talking with the victim, Mr. Erie, and never drove by
the scene three or four times. (R.R. Vol. 18, p. 69).
They did not stay there to scope out and make sure
everything happened okay. (R.R. Vol. 18, p. 69-70).
15. Chris drove the car back to where the victim
was working on his car, and Chris got out and helped
the victim jump his car. (R.R. Vol. 18, p. 126). Chris
got back into his own vehicle, and the victim came
and gave him five dollars for his help. (R.R. Vol. 18,
p. 126-127). Marie got the gun out of the glove
compartment of the car and handed it to Applicant.
(R.R. Vol. 18, p. 128). Applicant got out of the car
with the gun. (R.R. Vol. 18, p. 129).
16. Applicant and Chris’s car did not come back
and meet up with Javarrow at the Waffle House
after approximately 15-30 minutes, so Javarrow
drove back across the interstate and saw the victim
lying on the ground. (R.R. Vol. 18, p.45-46). They
stopped the car, Javarrow got out, saw that the
victim was bleeding, then when an ambulance drove
by, they got back in the car and chased it down to
come back and help render aide. (R.R. Vol. 18,
p. 46-47).
EMT Kevin Adcock was driving the
ambulance at Summerhill and College Drive when
he was flagged down by Javarrow and the others.
(R.R. Vol. 18, p. 105). When they arrived on the
scene, the victim was bleeding from a bullet wound
to the head and was unresponsive. (R.R. Vol. 18,
p. 106). The victim was loaded in the ambulance and
taken to the hospital. (R.R. Vol. 18, p. 107).
17. The police
Javarrow spoke to
He gave the police
probation at the

responded to the scene, and
the police. (R.R. Vol. 18, p. 48).
a false name because he was on
time.
(R.R. Vol. 18, p. 48).

29a
Javarrow did not tell the police at this time he knew
anything about Chris and Applicant robbing the
victim. (R.R. Vol. 18, p. 49).
18. A few days later, Javarrow gave another
statement to police where he told officers he knew
what happened, but that he was afraid.
(R.R. Vol. 18, p. 49-50). In the written statement, he
gave a time line of events that was backwards in
some places and not typewritten in the right order.
(R.R. Vol. 18, p. 50). The type written statement of
Javarrow Young was introduced into evidence as
Defendant’s Exhibit 2 (R.R. Vol. 18, p. 82).
19. Javarrow and Elena both gave statements to
police officers at the same time, but they were put in
different rooms. (R.R. Vol. 18, p. 73-74). During the
statement, according to Javarrow, the officers
threatened to take Javarrow’s baby away from him
and Elena. (R.R. Vol. 18, p. 74-75). It was discussed
that if they were involved in the murder and they
went to the penitentiary, what would happen to the
child. (R.R. Vol. 19, p. 26-27). Javarrow did not get
along with officers during the time he was giving his
statement. (R.R. Vol. 19, p. 9).
20. Javarrow Young testified on behalf of the
prosecution at Applicant’s trial.
(R.R. Vol. 18,
29-103).
21. Christina Davis was interviewed by police,
and she initially told them that Chris shot the victim
in order to protect Julius and because she was mad
at Chris for being the reason it all got started.
(R.R. Vol. 18, p. 134). In a subsequent statement,
Ms. Davis told officers that it was actually Applicant
that had done the shooting. (R.R. Vol. 18, p. 135).

30a
22. At the time of his trial testimony, Javarrow
Young was in custody for a probation violation
warrant due to missing reporting, dirty uranalysis,
failure to pay restitution, and failure to report to the
school board. (R.R. Vol. 18, p. 53-54). At the time of
his testimony, Mr. Young did not know the outcome
of his probation revocation. (R.R. Vol. 18, p. 55).
23. Prior to trial, Christina Davis gave defense
attorney Bill Schubert an interview at his office.
(R.R. Vol. 18, p. 167). Mr. Schubert kept Ms. Davis
waiting for her appointment because he was running
late from an eye doctor’s appointment.1 (R.R. Vol. 18,
p. 168-169).
24. Ms. Davis testified on behalf of the
prosecution, and she was not charged with any crime
in relation to the murder of Jason Erie.
(R.R. Vol. 18, p. 112-170).
25. Applicant was provided with his legal rights,
waived them voluntarily, and gave the following
confession, in part:
My name is Julius Murphy. Thursday night I
was riding with Chris, Marie and Christina. It
was about 1:00 at night. We seen this guy on
the side of Summerhill Road. He waved us
down and wanted us to give him a boost. We
went over there and stayed five or ten
minutes, giving him a boost. We sat in the
car. He opened the hood of both cars. He
connected the cables to both of the cars. His
car cranked up after five or ten minutes. He
1

During his re-cross examination of Christina Davis at trial,
Mr. Schubert asked, “and I was late from my eye doctor’s
appointment, wasn’t I?” (R.R. Vol. 18, p. 169).

31a
came around and gave Chris five dollars.
Then he went to his car. I got out of the car
and went up to the passenger side of his car. I
asked him to give me all his money. He didn’t.
He got out of the car and came around there
where I was, and I shot him. He fell to the
ground. I walked around the car to where he
was. His wallet was laying on the ground
beside him. I picked it up and got into the car
and left. (R.R. Vol. 19, p. 16-23).
26. Applicant was more than cooperative and
more than willing to tell officers what had happened.
(R.R. Vol. 19, p. 31).
27. After the interview, when officers were
preparing to take Applicant to be booked into the
jail, Applicant made the following statement, “I bet
y’all never had anybody stand up and say straight
out that he killed a motherfucker.” (R.R. Vol. 19,
p. 104-106).
III. Applicant’s Present Allegations
28. Applicant contends that the district attorney’s
office failed to disclose threats of prosecution and
promises of leniency to the State’s two main
witnesses, Javarrow Young and Christina Davis, as
required by Brady v. Maryland, 373 U.S. 83 (1963),
and Giglio v. United States, 405 U.S. 150 (1972).
29. Applicant asserts that the State unknowingly
presented false testimony through Javarrow Young
in violation of Ex parte Chabot, 300 S.W.3d 768
(Tex. Crim. App. 2009).
IV. Evidentiary Hearing
30. At the October 20, 2017 live evidentiary
hearing, Applicant called the following witnesses:

32a
William Schubert and Jennifer Hancock. The State,
as Respondent, called the following witnesses: Alwin
Smith, Kristie Wright, and Lance Hall.
31. Applicant had desired to call Javarrow Young
to testify at the evidentiary hearing to the facts
contained in his sworn affidavit, but Mr. Young was
at the time incarcerated.
While the Applicant
asserted Mr. Young was served with a subpoena at
TDCJ, his live appearance was not secured by
process of a bench warrant. (Hearing R. p. 8-9).
32. Applicant had desired to call Christina Davis
to testify at the evidentiary hearing to the facts
contained in her sworn affidavit, but she was never
served with a subpoena. (Hearing R. p. 8,10).
33. The Court allowed Applicant to submit the
Affidavits of Javarrow Young and Christina Davis in
support of his position.
34. Because Javarrow Young and Christina Davis
were not present at the hearing, the State did not
have an opportunity to cross-examine them as to the
testimony in their affidavits.
V. Summary of Witnesses’ Testimony at
Evidentiary Hearing
WILLIAM SCHUBERT
35. William Schubert testified he was one of
Mr. Murphy’s trial counsel in 1998, along with Craig
Henry.2 Mr. Murphy’s case was Mr. Schubert’s first
death penalty case. (Hearing R. p. 14-15, 17).
2

Mr. Henry did not testify at the hearing. In his Affidavit
filed in response to the Order of the Court, Mr. Henry stated
that he forwarded his complete file in this case to Applicant’s
habeas corpus counsel, and therefore, cannot respond to the

33a
36. During his representation of Mr. Murphy,
Mr. Schubert requested the State, directly or
indirectly, to disclose evidence of threats of charges
or promises of leniency made to the witnesses in the
case in written motions five separate times.
(Hearing R. p. 21-30); (Hearing R. Ex. 1 (Mot. for
Prod. of Evid. Favorable to the Accused, State v.
Murphy, No. 97F0462-102 (Tex. Dist. Feb. 17, 1998));
Ex. 2 (Pretrial Mot. for Disc. and Inspection, State v.
Murphy, No. 97F0462-102 (Tex. Dist. Feb. 17, 1998));
Ex. 3 (Def.’s Pretrial Mot. for Disclosure of Detailed
Exculpatory
Evid.,
State
v.
Murphy,
No. 97F0462-102 (Tex. Dist. Feb. 17, 1998)); Ex. 4
(Mot. for Prod. of Information Concerning State’s
Witnesses, State v. Murphy, No. 97F0462-102 (Tex.
Dist. Feb. 17, 1998)); Ex. 5 (Mot. to Require the State
to Reveal any Agreement Entered Into Between the
State and any Prosecution Witness that Could
Conceivably Influence Their Testimony, State v.
Murphy, No. 97F0462-102 (Tex. Dist. Feb. 17,
1998))).
37. Mr. Schubert specifically remembers a
discussion with the prosecutors for the State in the
case, Kristie Wright and Al Smith, where he asked
Ms. Wright and Mr. Smith why they didn’t file
charges against certain people and one person in
particular — Christina Davis, as she was the only
person in the car who wasn’t charged. (Hearing R.
p. 30-32). Mr. Schubert was not insinuating the
State was hiding something, but was more interested
why one female in the car was charged and
issues and has no independent recollection of the facts
surrounding the issues.

34a
Ms. Davis was not. (Hearing R. p. 32). He found it
odd that the State did not charge Ms. Davis, despite
charging all other occupants of the car in connection
with the crime. (Hearing R. p. 32).
38. The State told Mr. Schubert they had
disclosed everything and that they didn’t have deals.
They told him that they did not have a deal with
Christina Davis because she was never charged, and
she was not charged because there wasn’t a case
against her. (Hearing R. p. 33, 35-36).
39. Mr. Schubert said he was warned about
Al Smith because he came with a reputation for not
playing above board. But Mr. Schubert elaborated
saying he could not profess it was true, it was just
something he had been told. (Hearing R. p. 34).
Specifically, he testified Mr. Smith’s reputation for
truthfulness was not good. (Hearing R. p. 34).
40. Mr. Schubert recounted the interview meeting
with Christina Davis. Ms. Davis had requested
Al Smith be present for the interview. Mr. Schubert
testified that Mr. Smith arrived at Mr. Schubert’s
office prior to the meeting and Christina did not
show up. Mr. Smith eventually left the office, and
then Christina showed up soon afterwards and
requested to carry on the interview in Mr. Smith’s
absence. (Hearing R. p. 37-38). Mr. Schubert does
not recall any discussions with Christina during the
interview about threats made by the prosecutors. If
she had made such statements, they would have
likely resonated with Mr. Schubert. (Hearing R.
p. 52). Ms. Davis was nervous about being charged
in connection with the murder. (Hearing R. p. 39).
41. To Mr. Schubert’s knowledge, there was never
a deal or threat of criminal charges or promises of

35a
leniency made to Christina Davis. (Hearing R.
p. 41-42). The prosecutors never disclosed any deals,
threats of criminal charges or any kind of a promise
of leniency made to Javarrow Young. (Hearing R.
p. 42).
42. Mr. Schubert had a good overall working
relationship with the Bowie County District
Attorney’s office. (Hearing R. p. 47).
43. To say the defense was provided a copy of the
district attorney’s entire file in the case would be
consistent with the way it was done back then.
(Hearing. R. p. 47-48).
44. The defense team became aware that during
Javarrow Young’s police interview the officers
discussed his child being taken from him, and they
used that information during Javarrow Young’s
cross-examination to test his credibility. (Hearing R.
p. 55-56).
45. If the State did not disclose threats of
prosecution or promises of leniency, Mr. Schubert
would probably not have asked witnesses about such
threats or promises at trial. (Hearing R. p. 20-21).
JENNIFER HOPSON HANCOCK3
46. Ms. Hancock is a truck driver from Livingston,
Texas who has never met Applicant. (Hearing R.
p. 67).
47. Ms. Hancock met Javarrow Young around
2011 through her uncle. (Hearing R. p. 69).
3

The Court sustained the State’s hearsay objection to the
testimony of Ms. Hancock and struck the hearsay
statements from the Record. However, the Court will
address Ms. Hancock’s hearing testimony herein.

36a
48. Ms. Hancock read an article about the murder
and questioned Mr. Young about it. He did not want
to discuss the murder. (Hearing R. p. 69-71).
49. Ms. Hancock asked Mr. Young again in 2015
about the murder, and he said he still did not want
to discuss it. He eventually told her that he testified
at Julius Murphy’s trial and that he lied. He told
Ms. Hancock that Mr. Murphy was not the one who
did it, and at the time, prosecutors had threatened
him. (Hearing R. p. 71-73).
AL SMITH
50. Al Smith testified he worked for the Bowie
County District Attorney’s Office in 1997 and was
assigned the prosecution of the capital murder cases
of Julius Murphy and Chris Solomon. (Hearing R.
p. 80-81).
51. In Applicant’s case, the State did not disclose
threats or promises made to witnesses because there
were not threats or promises of leniency made to
witnesses. (Hearing R. p. 82-83). Specifically as it
relates to the witnesses Javarrow Young and
Christina Davis, the prosecutors did not threaten
them with prosecution if they did not testify on
behalf of the state. (Hearing R. p. 84).
52. Javarrow Young had no criminal liability, so
there would have been no criminal charges to
threaten him with. (Hearing R. p. 86).
53. It was Mr. Smith’s practice that if a deal was
cut with a witness for a lesser charge in exchange for
testimony, he would absolutely disclose that to the
defense. (Hearing R. p. 86).
54. As it relates to Christina Davis, she was a
very eager witness who called the prosecutors

37a
regularly. She wanted to know when the case was
going to trial and when she was going to testify.
(Hearing R. p. 87).
55. Prior to the trial, Ms. Davis was to be
interviewed by Mr. Schubert, and Ms. Davis
requested for Mr. Smith to go with her and be
present for the meeting. The day of the meeting,
Mr. Smith was informed that Mr. Schubert had a
doctor’s appointment and would need to reschedule.
Attempts to contact Ms. Davis to inform her of the
change were unsuccessful.
Ms. Davis went to
Mr. Schubert’s office and was told he would be late.
She was asked to wait so they could go ahead and do
the interview. Ms. Davis later called the prosecutors
upset because she went to Mr. Schubert’s office and
felt she had been sold out, left out to dry, and set up
to be ambushed by Mr. Schubert. (Hearing R.
p. 87-88).
56. Pretrial meetings with Ms. Davis included
Mr. Smith, Ms. Wright and Roy Barker, but the
elected District Attorney, Bobby Lockhart, did not sit
in on witness interviews.
(Hearing R. p. 89).
Mr. Lockhart did not threaten Ms. Davis in this case.
(Hearing R. p. 90).
57. Ms. Davis was not charged with an offense
because she didn’t do anything to make her culpable
or criminally liable for anything that happened. She
actually attempted to keep Julius from getting out of
the car. (Hearing R. p. 90).
58. At no point did Mr. Smith or Ms. Wright
threaten Javarrow Young that if he did not testify for
the state he would face criminal charges or make
promises to him in exchange for his testimony.
(Hearing R. p. 90-91).

38a
59. At no point was Christina Davis threatened
with criminal charges if she did not testify, and no
promises were made to her in exchange for her
testimony. (Hearing R. p. 91). There would not have
been any reason for Mr. Smith to offer leniency,
promise leniency, suggest or imply leniency to
Christina because she didn’t do anything. (Hearing
R. p. 93). Christina Davis was told repeatedly that
she was not going to be charged with a crime.
(Hearing R. p. 96).
60. Of the four occupants of co-defendant Chris
Solomon’s car at the scene of the crime, Ms. Davis
was the only person who was never charged in
connection with the murder. (Hearing R. 94).
61. Mr. Smith has probably had over 200 jury
trials, and he does not recall every conversation he
had with every witness. (Hearing R. p. 92-93).
62. A case Mr. Smith prosecuted in 1993 was
overturned on appeal on the basis that the defense
counsel was not provided copies of photographs as
ordered by the court and for failure to provide
pretrial access to certain witnesses. (Hearing R.
p. 97-98).
63. Another case Mr. Smith prosecuted resulted in
a death sentence, but the death sentence was later
vacated on the basis there was false testimony given
by a witness, unbeknownst to the state. (Hearing R.
p. 101-103).
64. Mr. Smith has never been disciplined nor
suspended by the State Bar. (Hearing R. p. 97).
KRISTIE WRIGHT
65. Kristie Wright was employed as a prosecutor
for the Bowie County District Attorney’s office in

39a
1997 and was one of the prosecutors assigned on
Applicant’s case. (Hearing R. p. 105).
66. If Ms. Wright met with a witness and offered
him leniency in some way, in her practice, she would
make defense counsel aware of it. (Hearing R.
p. 105-106).
67. Ms. Wright did not have a felony docket. If
the District Attorney or someone else wanted her to
make a deal, she would, but she never made a deal
with a defendant. (Hearing R. p. 106).
68. Ms. Wright talked with Christina Davis on the
phone often. Ms. Davis was in contact with the
prosecutors a lot. (Hearing R. p. 107). Ms. Davis
was anxious to get it over with and always wanted to
be kept up on the case. She was not a reluctant
witness. (Hearing R. p. 107-108). Ms. Wright did
not make any threats to Christina Davis that she
would be charged if she did not testify. (Hearing R.
p. 109).
69. Ms. Wright recalls Javarrow Young as being
pretty cooperative. Ms. Wright is unaware of any
promises made to Mr. Young in exchange for his
testimony. Ms. Wright never made any promises or
threats to Mr. Young. (Hearing R. p. 108-109).
70. The elected District Attorney, Bobby Lockhart,
did not sit in on pretrial meetings with witnesses,
and it would not be feasible for him to have made
threats or promises to any of the witnesses.
(Hearing R. p. 109).
71. Ms. Wright was not present during the police
officers’ interviews with witnesses in the case and
does not have personal knowledge of statements

40a
made by the police during the witness interviews.
(Hearing R. p. 116).
LANCE HALL
72. Mr. Lance Hall is a licensed peace officer and
is currently employed as an investigator for the
Bowie County District Attorney’s Office. (Hearing R.
p. 121).
73. Mr. Hall ran a criminal history check on
Javarrow Young and learned that he was
incarcerated at the Wynne Unit in Huntsville Texas
at the time of the hearing. He is serving a three year
sentence on a felony assault charge out of Harris
County, Texas. (Hearing R. p. 121-122).
74. Mr. Hall’s review of Javarrow’s criminal
history revealed he has an extensive criminal
history, with his first felony conviction in 1997 for
burglary of a building. That conviction was followed
by a 2004 felony conviction for unauthorized use of a
vehicle and forgery. (Hearing R. p. 127-128).
75. Javarrow Young has a 2005 felony conviction
for facilitating escape. Mr. Hall was a lieutenant at
the sheriff’s office at that time and was on call.
Mr. Young was in the Bi-State and put a man by the
name of Austin Davis in the trash to be carried out.
He covered him with trash, rolled him outside and
permitted him to escape. (Hearing R. p. 128).
76. In 2009, Javarrow Young was convicted of the
felony offense of theft with prior convictions out of
Harris County, Texas. (Hearing R. p. 129).
77. In 2010, Javarrow Young was convicted of the
felony offense of theft with two prior theft convictions
out of Bowie County, Texas. (Hearing R. p. 128-129).

41a
78. In 2012, Javarrow Young was convicted of the
felony offense of assault-bodily injury-family
violence, as well as two convictions for violation of
protective orders, all from Harris County, Texas.
(Hearing R. p. 129-130).
79. In 2016, Javarrow Young was convicted of the
felony offense of assault-bodily injury-family
violence. (Hearing R. p. 130).
80. On September 30, 2014, Javarrow Young was
convicted of the misdemeanor offense of failure to ID
in Harris County, Texas. (Hearing R. p. 132).
81. In 2010, Javarrow Young was convicted of the
misdemeanor offense of failure to ID in Harris
County, Texas. (Hearing R. p. 133).
82. In 2012, Javarrow Young was convicted of the
misdemeanor offense of reporting a false alarm in
Bowie County, Texas. (Hearing R. p. 133-134).
83. On December 28, 2009, Javarrow Young was
convicted of the misdemeanor offense of theft in
Harris County, Texas. (Hearing R. p. 134).
84. In November 2009, Javarrow Young was
convicted of the misdemeanor offense of prostitution
in Harris County, Texas. (Hearing R. p. 134).
85. The Court finds that Lance Hall had no
personal knowledge of the crime for which Applicant
was convicted or of the circumstances of the
witnesses’ testimony at trial.
VI. Consideration of Applicant’s Allegations
and the Evidence.
JAVARROW YOUNG IS NOT CREDIBLE
86. The Court find that Javarrow Young is not
credible for the following reasons:

42a
a. Mr. Young’s extensive criminal history
includes multiple felony and misdemeanor
convictions for crimes of moral turpitude.
b. As described above, at trial, Mr. Young’s
testimony was that he did not see the shooting
because they had driven away from the area and
across the interstate. His testimony at trial that he
did not see the actual shooting is consistent with
his written statement to the police, introduced at
trial into evidence as Defendant’s Exhibit 2
(R.R. Vol. 18, p. 82).
c.
Mr. Young’s affidavit almost twenty years
later that Julius Murphy was not the shooter is
undermined by the fact that Julius Murphy
confessed to shooting the victim. (R.R. Vol. 19,
p. 16-23, 104-106).
d. In his Affidavit attached as an exhibit to
Applicant’s Application for Writ of Habeas Corpus,
Mr. Young does not state that he saw Chris
Solomon shoot the victim and does not otherwise
identify the basis for his statement that he “never
told them that Chris pulled the trigger.” Further,
his Affidavit does not directly state that Chris
pulled the trigger. While he states he did not tell
the jury the whole truth, he does not elaborate on
that statement.
87. Applicant provided an affidavit from Jennifer
Hopson Hancock wherein she states:
At that time, I brought the subject of the
murder up again when I overheard my uncle
joking with Mr. Young about being a
murderer. They were on the balcony at my
apartment and, when I overheard this

43a
comment, I asked Mr. Young about it. At first,
Mr. Young indicated that he did not want to
talk about it. But my uncle Ray encouraged
Mr. Young to tell me what had happened and
he did. Mr. Young told me that he had robbed
and killed somebody. He further said that,
back in 1997 and 1998, what he told police and
testified to relating to Julius Murphy and the
crime was not ‘the whole truth.’ He went on to
tell me that Julius Murphy took the rap for
the murder, but Mr. Murphy was not the one
who did it. He explained that he had made a
deal and did whatever he had to do to keep
himself out of trouble, including lying during
his testimony at Mr. Murphy’s trial to hide his
own role in the murder and keep himself out of
prison. He said he lied on Mr. Murphy and
Mr. Murphy took the rap because he
(Javarrow) had a family and a kid and
Mr. Murphy did not.
These hearsay statements from Mr. Young
contradict his own affidavit where he implied that
Chris Solomon was the shooter. The statements
Ms. Hancock allegedly heard Mr. Young make,
although not completely clear, infer that Mr. Young
may have been the shooter. No mention is made that
Chris Solomon was the shooter.
These
inconsistencies again call into question the veracity
of Mr. Young’s affidavit.
88. At the evidentiary hearing, the Applicant
called Ms. Hancock to testify to the contents of her
affidavit. The State objected to her testimony on the
grounds of hearsay. After her testimony concluded,
the trial court sustained the objections to her

44a
testimony; however, the general substance of her
testimony is contained in the affidavit submitted
with Applicant’s subsequent application.
89. Applicant also provided an affidavit from
Elena Byrd, who was in the car with Javarrow
Young on the night in question. Her affidavit is
entirely silent as to where they were located at the
time of the shooting. If the inference of Mr. Young’s
affidavit is that the car he was in was located in a
position making it possible for him to see that Chris
Solomon committed the murder, it would be logical
that Ms. Byrd, who was in the same car, would also
have seen the murder, and would have stated that,
as well as the identity of the shooter, in her affidavit.
Her affidavit indicates she is unaware of whether
Mr. Young received any promises of leniency or
threats of prosecution from the district attorney’s
office.
90. Mr. Young was not present at the evidentiary
hearing to testify; and therefore, the State was not
provided an opportunity to cross-examine him.
91. Based on the above findings, see supra
Findings 84-88, the Court finds that Javarrow Young
is not credible and neither is his affidavit.
92. Applicant has failed to prove that Mr. Smith
or Ms. Wright made any threats of prosecution or
promises of leniency to Mr. Young or that Young
gave false testimony at trial.
CHRISTINA DAVIS IS NOT CREDIBLE
93. The Court find that Christina Davis is not
credible for the following reasons:
a. Ms. Davis provided an affidavit—
attached to Applicant’s subsequent state habeas

45a
application—wherein she stated “I later talked to
the District Attorneys, Bobby Lockhart, Al Smith,
and Kristie Wright, who told me that if I did not
testify they would charge me with conspiracy to
commit murder.” This statement is undermined by
the testimony given by both Mr. Smith and
Ms. Wright at the live evidentiary hearing that
Bobby Lockhart, the elected district attorney, never
participated in meetings with witnesses.
In
addition, Mr. Smith and Ms. Wright were
unequivocal that no threats were made to
Ms. Davis and that she was a very willing and
eager witness.
b. Ms. Davis’s affidavit also states, “The
District Attorneys also told me I was not allowed to
talk to Julius’s attorneys because it could interfere
with the case.” This statement is undermined by
testimony given by Mr. Schubert and Mr. Smith at
the live evidentiary hearing, testifying Ms. Davis
had a meeting set up to give an interview to
Mr. Murphy’s attorneys and that it was her own
request to have one of the prosecutors present at
the meeting. That request did not come to fruition,
but Ms. Davis did give an interview to defense
counsel.
c.
Ms. Davis’s affidavit states, “After I
testified, the District Attorney’s told me for the first
time that I would not be charged with any crime.”
This statement is undermined by testimony given
by Mr. Schubert and Mr. Smith at the live
evidentiary hearing. Mr. Schubert stated he knew
Ms. Davis was not being charged, and he found it
odd. He recalled a conversation with prosecutors at
a pre-trial hearing where they discussed Ms. Davis

46a
not being charged. Mr. Smith stated that prior to
the trial he repeatedly told Ms. Davis she was not
going to be charged because she did not do
anything to be criminally liable.
94. Ms. Davis was not present to testify at the
evidentiary hearing, and therefore, the State did not
have an opportunity to cross-examine her.
95. Based on the above findings, the Court finds
that Christina Davis is not credible, and neither is
her affidavit.
96. Applicant has failed to prove that Mr. Smith
or Ms. Wright made any threats of prosecution or
promises of leniency to Ms. Davis or that Ms. Davis
gave false testimony at trial.
APPLICANT’S ALLEGATIONS ARE
GENERALLY NOT CREDIBLE
97. The Court, having taken judicial notice of the
trial transcript, finds that neither Applicant nor his
trial attorneys raised any issue or presented any
evidence at trial that Javarrow Young was an
eyewitness to the shooting or alternatively the actual
shooter.
98. The Court finds that neither Applicant nor his
appellate attorney raised any issue on direct appeal
alleging that Javarrow Young was an eyewitness to
the shooting or alternatively the actual shooter.
99. The Court finds that neither Applicant nor his
state habeas attorney raised any issue or presented
any evidence during his initial state habeas
application that Javarrow Young was an eyewitness
to the shooting or alternatively the actual shooter.

47a
100. The Court find that neither Applicant nor his
federal habeas attorneys raised any issue or
presented any evidence during his federal habeas
application that Javarrow Young was an eyewitness
to the shooting or alternatively the actual shooter.
101. If it is to be believed that Javarrow Young
either saw Chris Solomon commit the murder or that
Mr. Young played a role in the murder, Applicant
would have been aware of same, yet allegations of
this nature were not raised at anytime before
September 24, 2015.
102. There is no sworn testimony by Applicant
denying that he was the shooter.
AL SMITH IS CREDIBLE
103. The Court finds that Al Smith credibly denied
any threats of prosecution or promises of leniency
made to either Javarrow Young or Christina Davis.
The Court finds Smith credible for several reasons:
a. Mr. Smith’s recollection of events
surrounding the “interview” of Ms. Davis by
Mr. Schubert is more in line with testimony at
trial, than that of Mr. Schubert.
At trial,
Mr. Schubert acknowledged, through Ms. Davis,
that she was kept waiting because he was running
late due to a doctor’s appointment. Mr. Smith
recalls being informed Mr. Schubert had a doctor’s
appointment and needed to reschedule the
interview, but Mr. Smith was unable to reach
Ms. Davis to advise her of the change. This is in
contrast to Mr. Schubert’s recollection of events,
where he testified at the evidentiary hearing that
he and Mr. Smith were waiting together, and
Ms. Davis was running late.

48a
b. No explanation has been provided about
why Mr. Smith would need to threaten or promise
leniency to Mr. Young or Ms. Davis. Mr. Murphy
gave a full confession to the murder. Neither
Mr. Young, nor Ms. Davis had any criminal liability
according to Mr. Smith, so there was nothing he
could use to strike a deal if the State wanted to.
c.
The only evidence offered to contradict
Mr. Smith’s testimony with regard to not offering a
deal or making a promise of leniency with regard to
Javarrow Jones are the Affidavit of Javarrow Jones
and the hearsay statements of Mr. Jones offered
through Jennifer Hopson Hancock, and the Court
has found Mr. Jones not to be credible.
d. The only evidence offered to contradict
Mr. Smith’s testimony with regard to not offering a
deal or making a promise of leniency with regard to
Christina Davis is the Affidavit of Christina Davis,
and the Court has found Ms. Davis not to be
credible.
KRISTIE WRIGHT IS CREDIBLE
104. The Court finds that Kristie Wright credibly
denied making any threats of prosecution or
promises of leniency to both Javarrow Young and
Christina Davis.
The Court finds Ms. Wright
credible for several reasons:
a. Ms. Wright would make defense counsel
aware in cases where she had met with witnesses
and decided to offer them a deal for leniency in
some way. Ms. Wright never was in the position to
offer a witness a deal in exchange for their
testimony, and she never made a deal with any
defendant.

49a
b. Ms. Wright talked with Christina Davis
on the phone often. Ms. Davis was in contact with
the prosecutors a lot. Ms. Davis was anxious to get
it over with and always wanted to be kept up on
the case. She was not a reluctant witness.
c.
Ms. Wright recalls Javarrow Young as
being pretty cooperative. Ms. Wright is unaware of
any promises made to Javarrow in exchange for his
testimony.
d. No explanation has been provided about
why Ms. Wright would need to threaten or promise
leniency to Mr. Young or Ms. Davis. Mr. Murphy
gave a full confession to the murder.
105. The
Court
further
finds
persuasive
Mr. Schubert’s live testimony that he does not recall
any statements by Christina Davis during the
interview about threats or promises of leniency made
by the prosecutors. As competent trial counsel, the
Court finds Mr. Schubert’s testimony — that he
would have inquired into whether any deals or
threats were made — is significant, because he does
not recall Christina Davis suggesting that such
threats or deals were made.
Moreover, given
Mr. Schubert’s concerns at the time related his
perception of Mr. Smith’s reputation and his
resulting heightened vigilance, his testimony — that
he received no indication from Ms. Davis of threats
or deals — further supports the testimony of
Al Smith and Kristie Wright that no such threats or
deals were made.

50a
CONCLUSIONS OF LAW
I. Law Governing Applicant’s Claims
1. Applicant’s suppression-of-evidence claim is
governed by Brady v. Maryland, 373 U.S.83 (1963).
See Ex parte Miles, 359 S.W.3d 647, 664-65
(Tex. Crim. App. 2012). An applicant must prove
that the State failed to disclose evidence, such
evidence is favorable and the evidence is material,
meaning there is a reasonable probability that the
outcome of trial would have been different had it
been disclosed. Id. at 665. The suppressed evidence
must also be admissible in court. Id.
2. Applicant’s unknowing presentation of false
evidence claim is governed by Ex parte Chabot,
300 S.W.3d 768 (Tex. Crim. App. 2009). The Due
Process Clause of the Fourteenth Amendment can be
violated when the State uses material false
testimony to obtain a conviction, regardless of
whether it does so knowingly or unknowingly. See
Ex parte Weinstein, 421 S.W.3d 656, 665
(Tex.Crim.App. 2014), citing Ex parte Chabot,
300 S.W.3d 768, 770-71 (Tex.Crim.App. 2009); see
also Ex parte Chavez, 371 S.W.3d 200, 207-08
(Tex.Crim.App. 2012). A due-process violation may
arise not only through false testimony specifically
elicited by the State, but also by the State's failure to
correct testimony it knows to be false. See Ex parte
Ghahremani, 332 S.W.3d 470, 478 (Tex. Crim. App.
2011). In reviewing a claim alleging the use of
materially false testimony, the reviewing court must
determine: (1) whether the testimony was, in fact,
false, and, if so, (2) whether the testimony was
material. See Ex parte Weinstein, 421 S.W.3d at 665.
Determining whether testimony is false is distinct

51a
from the materiality inquiry. See id. The first prong
in a false-testimony claim is whether the testimony
was, in fact, false. See id. The proper question in a
false-testimony claim is whether the particular
testimony, taken as a whole, gave the jury a false
impression. See Ex parte Weinstein, 421 S.W.3d at
666; Ex parte Chavez, 371 S.W.3d at 208. The second
prong in a false-testimony claim is materiality. See
Ex parte Weinstein, 421 S.W.3d at 665. Only the use
of material false testimony amounts to a due-process
violation. See id. And false testimony is material
only if there is a reasonable likelihood that it affected
the judgment of the jury. See id.; see also Ex parte
Chavez, 371 S.W.3d at 208. The defendant must
prove both prongs of his false-testimony claim by a
preponderance of the evidence.
See Ex parte
Weinstein, 421 S.W.3d at 665; Ex parte Napper,
322 S.W.3d 202, 242-44 (Tex. Crim. App. 2010).
3. Applicant bears the burden of proving, by a
preponderance of the evidence, facts that would
entitle him to relief. See ex parte Richardson,
70 S.W.3d 865, 870 (Tex. Crim. App. 2002).
II. Legal Conclusions
4. Applicant has failed to show by a
preponderance of the evidence that the State made
any undisclosed threats or promises of leniency to
Javarrow Young or Christina Davis. Thus, Applicant
cannot show that the State suppressed evidence in
violation of Brady v. Maryland.
5. Applicant has failed to show by a
preponderance of the evidence that the witness
Javarrow Young gave any false testimony at trial.
Therefore, he has failed to show that the State

52a
knowingly or unknowingly presented false testimony
or failed to correct evidence it knew to be false.
6. Applicant has failed to show by a
preponderance of the evidence that the witness
Christina Davis gave false testimony at trial.
Therefore, he has failed to show that the State
knowingly or unknowingly presented false testimony
or failed to correct evidence it knew to be false.
7. Assuming solely for purposes of the
supplemental application for writ of habeas corpus
that Applicant proved Javarrow Young gave false
testimony at trial, Applicant’s written confession to
shooting the victim Jason Erie, as well as statements
to Detective Ronnie Sharp confessing to the murder,
as well as testimony from other witnesses indicating
Applicant was the triggerman, demonstrate that
while Javarrow Young now infers that he would have
testified at trial that Chris Solomon was the shooter,
at the time of the offense, Applicant took
responsibility and confessed to being the shooter.
Thus, assuming Javarrow Young’s position is that
Chris Solomon was the shooter, Applicant cannot
show a reasonable probability of a different result or
material falsity given that Applicant confessed to the
murder and all other witnesses indicate Applicant
was the triggerman.
RECOMMENDATION THAT APPLICATION
FOR WRIT BE DENIED
For the forgoing reasons,
that Applicant’s subsequent
habeas corpus be DENIED.
these Findings of Fact and

the court recommends
application for writ of
The Court Orders that
Conclusions of Law be

53a
forwarded to the Court of Criminal Appeals, together
with any other pleadings not already forwarded.
Signed: March 8, 2018.
/s/ Bill Miller
Bill Miller, Judge Sitting by Assignment
5th Judicial District, Bowie County

54a
APPENDIX E
_________
IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
_________
No. WR-38,198-04
_________
EX PARTE JULIUS JEROME MURPHY, Applicant
_________
ON APPLICATION FOR POST-CONVICTION
WRIT OF HABEAS CORPUS
IN CAUSE NO. 97-F-462-102
IN THE 102ND JUDICIAL DISTRICT COURT
BOWIE COUNTY
_________
Per curiam. ALCALA, J., filed a concurring
and dissenting opinion.
_________
ORDER
This is a subsequent application for a writ of
habeas corpus filed pursuant to the provisions of
Texas Code of Criminal Procedure Article 11.071
§ 5.1
In August 1998, a jury found applicant guilty of the
offense of capital murder. The jury answered the
special issues submitted pursuant to Article 37.071,
and the trial court, accordingly, set applicant’s
punishment at death.
1

Unless otherwise indicated all references to Articles refer to
the Code of Criminal Procedure.

55a
This Court affirmed applicant’s conviction and
sentence on direct appeal.
Murphy v. State,
No. AP-73,194 (Tex. Crim. App. May 24, 2000)(not
designated for publication). This Court denied relief
on applicant’s initial post-conviction application for a
writ of habeas corpus.
Ex parte Murphy,
No. WR-38,198-02 (Tex. Crim. App. Apr. 10, 2002)
(not designated for publication).2
On January 17, 2006, applicant filed in the trial
court a subsequent application for a writ of habeas
corpus. In the subsequent application, applicant
asserted that he was intellectually disabled and,
therefore, exempt from execution. We remanded the
issue to the trial court, and that court determined
that applicant should be denied relief. We agreed.
Ex parte Murphy, No. WR-38,198-03 (Tex. Crim.
App. Nov. 19, 2014) (not designated for publication).
On September 24, 2015, applicant filed a second
subsequent application in the trial court. In this
application, applicant asserts that (1) the district
attorney’s office failed to disclose threats of
prosecution and promises of leniency to the State’s
two main witnesses as required by Brady v.
Maryland, 373 U.S. 83 (1963), and Giglio v. United
States, 405 U.S. 150 (1972); (2) the State
unknowingly presented false testimony through one
of these witnesses in violation of Ex parte Chabot,
300 S.W.3d 768 (Tex. Crim. App. 2009); and
2

On July 15, 1998, applicant filed with this Court an
application for a writ of prohibition requesting this Court to
prohibit the trial court from ordering him to submit to a
psychiatric exam. The Court denied him leave to file that
application on July 16, 1998.
See Ex parte Murphy,
No. WR-38,198-01 (no written order issued).

56a
(3) evolving standards of decency dictate that the
death penalty is no longer constitutional.
On October 12, 2015, this Court stayed applicant’s
execution until further order of this Court. After
reviewing applicant’s subsequent application, we
find that his first and second claims satisfy the
requirements of Article 11.071 § 5. Accordingly, we
remand those claims to the trial court for resolution.
IT IS SO ORDERED THIS THE 15th DAY OF
JUNE, 2016.
Do Not Publish

